   NATIONAL RAILROAD
   PASSENGER CORPOARATION
                                          Office of Inspector General

        Amtrak Ticket Agent Terminated for Providing False Information on Application
                                     January 3, 2012
                                     Case DC-11-0115

An on-duty Amtrak ticket agent was arrested in April 2011 based on a warrant from Baltimore
County, MD. The arrest warrant was for a failure to appear on a previous charge of obtaining
money under false pretenses. The Amtrak Police Department reported to OIG that a routine
criminal record check revealed that the ticket agent also had a previous 1988 arrest and
conviction for attempted theft. OIG investigation disclosed that the ticket agent falsely
represented on his 2010 Amtrak employment application that he had never been convicted of a
crime. An October 2011 disciplinary hearing determined that the ticket agent had violated the
Amtrak Standards of Excellence pertaining to Trust and Honesty and resulted in his dismissal
from the company the following month.
